«

*

APPENDIX F
45

VIRGINIA:
Jtt the Supreme Count of Virginia field, at the Supreme Count {Building in the
City. of. {Richmond on 5fuin&day the 1$t day, of, July,, 2C21.
Sands Cooper,
against

Appellant,
Record No. 210258
Court of Appeals No. 0597-20-4

Advanced Internet Automation, LLC, et al.,

Appellees.

Upon a Petition for Rehearing
On consideration of the petition of the appellant to set aside the judgment rendered herein
on May 5, 2021 and grant a rehearing thereof, the prayer of the said petition is denied.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:
Deputy Clerk

APPENDIX C
34

VIRGINIA;
^
^
**** <* ^ Supreme. <W SkJtdinn.
in the
of Sudutwnd an Wednesday, the. 5th day of May, 2021.

Sands Cooper,
against

Appellant.
Record No. 210258
Court of Appeals No. 0597-20-4

Advanced Internet Automation, LLC, et al.;

Appellees.

Fiom the Court of Appeals of Virginia
Finding that the appeal was not perfected in the manner provided by law because the
appellant failed to file the notice of appeal in the Court of Appeals, the Court dismisses the
petition for appeal filed in the above-styled case. Rule 5:14(a).

A Copy,
Teste:
Douglas B. Robelen. Clerk
By:

cfyrj AAUiCLv;-

Deputy Clerk

COURT OF APPEALS OF VIRGINIA
^ Present: Judges O’Brien, Malveaux and Senior Judge Frank

s
-

a

SANDS COOPER

» v.

M
B

MEMORANDUM OPINION*
PER CURIAM
DECEMBER 15, 2020

Record No. 0597-20-4

ADVANCED INTERNET AUTOMATION, LLC AND
TRUMBULL INSURANCE COMPANY

-

FROM THE VIRGINIA WORKERS’ COMPENSATION COMMISSION
(Sands Cooper, on brief), pro se.
(Tenley Carroll Seli; Lynch Seli, P.C., on brief), for appellees.
Sands Cooper (hereinafter “claimant”) appeals a decision of the Workers’ Compensation
Commission (“the Commission”) finding that his injuries from an automobile accident were not
compensable because they did not arise out of and in the course of his employment. We have
reviewed the record and the Commission’s opinion and find that this appeal is without merit.
Jurisdiction
HI., IV., VI., and VII. In claimant’s amended opening brief,1 the third, fourth, sixth,2 and
seventh assignment of error challenge only the deputy commissioner’s rulings. Our appellate

Pursuant to Code § 17.1-413, this opinion is not designated for publication.
1 Claimant filed his original opening brief and appendix on August 14, 2020. He filed an
amended opening brief and appendix on August 28, 2020.
2 Although the sixth assignment of error avers that the “Commission . . . erred in
upholding the [djeputy [commissioners opinion” that the vehicle driven by the claimant was
not allowable for his employment, claimant offers no argument with respect to the Commission’s
decision. Instead, his argument supporting the sixth assignment of error challenges only the
deputy commissioner’s decision. Accordingly, to the extent that the sixth assignment of error
challenges the Commission’s decision, we conclude that claimant abandoned it by failing to offer
supporting argument. See Rule 5A:20(e).

jurisdiction does not extend to decisions made by deputy commissioners; rather, we are limited
to reviewing “final decision[s] of the Virginia Workers’ Compensation Commission[.]” Code
§ 17.1-405(2). Accordingly, with respect to the third, fourth, and seventh assignments of error,
there is no ruling that lies within our jurisdiction to review.
Rules 5A:18. 5A:20. and 5A:25
I., II., and V. With respect to the first, second, and fifth assignments of error, claimant’s
opening brief does not comply with the Rules of Court.
The opening brief does not comply with Rule 5A:20(c). Rule 5A:20(c) states that an
opening brief shall contain a “statement of the assignments of error with a clear and exact
reference to the page(s) of the transcript, written statement, record, or appendix where each
assignment of error was preserved in the trial court." The first, second, and fifth assignments of
error do not refer to the record or appendix to show where claimant’s arguments were preserved.
Tn the first assignment of error, claimant asserts that “[t]he [f]ull Commission . . . erred in
[upholding the [djeputy [Commissioner’s determination regarding [his] credibility,” but he does
not state where in the record he preserved this argument. Instead, he cites only to the deputy
commissioner’s decision. In the second assignment of error, claimant maintains that the
Commission “erred in denying evidence that would have corrected the record” after the deputy
commissioner erred by admitting “a false document” from “the defense team.” Although
claimant identifies the “false document” in the record, he does not identify where in the record
he preserved his argument that the Commission erred by excluding certain evidence. In the fifth
assignment of error, claimant contends that the “Commission erred in its decision to exclude the
claimant’s workers’ compensation policy binder which has been the only proof that an actual
policy exists.” Claimant cites to a transcript of the hearing before the deputy commissioner and
the deputy commissioner’s opinion as the places in the record where he preserved this argument.
-2-

He also asserts that “her ruling . . . excludes the contents of the policy which could have resolved
the issue of the claimant’s work activities covered by the policy, pursuant to Commission Rule
1.12.” (Emphasis added). However, claimant does not cite where in the record he preserved his
argument before the Commission.
Thus, the assignments of error addressing the Commission’s rulings fail to state where in
the record the issues were preserved for appeal, as required by Rule 5 A: 20(c). The purpose of
assignments of error is to “point out the errors with reasonable certainty in order to direct [the]
court and opposing counsel to the points on which appellant intends to ask a reversal of the
judgment, and to limit discussion to these points.” Carroll v. Commonwealth. 280 Va. 641, 649
(2010) (quoting Yeatts v. Murray. 249 Va. 285, 290 (1995)). An appellant must “lay his finger
on the error.” Id Claimant has failed to do so.
Further, the opening brief does not comply with Rule 5A:20(e), which mandates that the
opening brief include “[t]he standard of review and the argument (including principles of law
and authorities) relating to each assignment of error.” Claimant includes a section in his brief
titled “Standard of Review.” However, it does not provide any principles of law or authorities
that relate to the appropriate standard of review for each of these assignments of error.3 “[W]hen
a party’s failure to strictly adhere to the requirements of Rule 5A:20(e) is significant, the Court
of Appeals may . . . treat a[n assignment of error] as waived.” Atkins v. Commonwealth. 57
Va. App. 2, 20 (2010) (quoting Parks v. Parks. 52 Va. App. 663, 664 (2008)). See also Francis
vJFrancis, 30 Va. App. 584, 591 (1999) (“Even pro se litigants must comply with the rules of
court.”).

3 Claimant includes legal authorities in the section entitled “Standard of Review,” but
they are not offered to support the asserted standards of review. Instead, he cites legal authorities
addressing when an accident arises out of employment and the “actual risk” test.
-3 -

The opening brief also fails to comply with Rule 5A:25. Although claimant included an
appendix with his amended opening brief, it is not complete or timely filed 4 “The appendix is a
tool vital to the function of the appellate process in Virginia. ... By requiring the inclusion of all
parts of the record germane to the issues, the Rules promote the cause of plenary justice.”
Patterson v. City of Richmond. 39 Va. App. 706, 717 (2003) (quoting Thrasher v. Burlage. 219
Va. 1007, 1009-10 (1979) {per curiam)). “Thus, the filing of an appendix that complies with the
Rules, is ‘essential to an informed collegiate decision.’” IT (quoting Thrasher. 219 Va. at 1010).
Rule 5A:25(c) states that an appendix shall include the following:
(1) The basic initial pleading (as finally amended);
(2) The judgment appealed from, and any memorandum or
opinion relating thereto;
(3) Any testimony and other incidents of the case germane to
the assignments of error;
(4) The title (but not the caption) of each paper contained in
the appendix, and its filing date;
(5) The names of witnesses printed at the beginning of excerpts
from their testimony and at the top of each page thereof;
and
(6) Exhibits necessary for an understanding of the case that can
reasonably be reproduced.

4 After claimant did not timely file a designation of the contents of the record to be
included in the appendix, employer moved to dismiss the appeal on June 5, 2020. On June 11,
2020, we denied employer’s motion and granted claimant an extension of time to June 26, 2020
to file his designation of the contents of the appendix. Claimant filed his designation on June 26,
2020, followed by employer’s designation. Employer also moved to strike certain items from
claimant’s designation that were not part of the Commission’s record, and on July 30, 2020, we
granted employer’s motion and directed claimant to file the opening brief and appendix by
August 14, 2020. On August 14, 2020, claimant filed his opening brief, but he did not file an
appendix, prompting the issuance of a show cause order on August 20, 2020. The order ruled
that the appendix had not been timely filed and directed claimant to show cause by September 4,
2020, why the appeal should not be dismissed. It also directed claimant to file an amended
opening brief in compliance with Rule 5A:20 by September 4, 2020. Claimant filed an amended
opening brief and appendix on August 28, 2020.
-4-

Here, the appendix does not include claimant's request for review or the parties’ written
statements to the Commission, thereby preventing us from determining what issues were
preserved for appeal.5 The insurance policy that claimant maintains in his fifth assignment of
error was wrongfully excluded by the Commission is not part of the appendix.6 Finally, the
appendix omits the documents designated by employer. Without a complete appendix, we are
unable to engage in a meaningful review of claimant’s assignments of error.
“[I]t is not the function of this Court to ‘search the record for error in order to interpret
the appellant’s contention and correct deficiencies in a brief.’” West v. West. 59 Va. App. 225,
235 (2011) (quoting Buchanan v. Buchanan. 14 Va. App. 53, 56 (1992)). “Nor is it this Court’s
‘function to comb through the record ... in order to ferret-out for ourselves the validity of
[appellant’s] claims.’” Burke v. CatawbaHosp.. 59 Va. App. 828, 838 (2012) (quoting

5 In the first assignment of error, claimant contends that the Commission erred by
affirming the deputy commissioner’s determination that his testimony was not credible, hi
support of this argument, he asserts that he was not competent to testify based on “challenges
with memory loss due to a concussion, long-term medication, multiple surgeries, and substance
abuse treatment.” Claimant asserts further that “no one that was present during the January 23,
2019 hearing[] had the capacity to [assess his competence].” We note that the excerpt from the
hearing in the appendix indicates that claimant and his counsel were questioned by the deputy
commissioner regarding his competency, and they both agreed that he was competent to testify.
Although the Commission upheld the deputy commissioner’s finding that claimant’s testimony
was not credible, it did not address the issue of his competency. Accordingly, we conclude that
he has waived this argument. Rule 5A:18.
6 As claimant concedes that the policy is not part of the record, we presume that he did
not proffer it. “It is appellant’s burden to provide this Court with a record from which it can
decide the issues in the case.” Clarke v. Commonwealth. 60 Va. App. 190, 199 (2012). An
appropriate proffer creates a record of “what the evidence would have been.” Holies v. Sunrise
Terrace. Inc.. 257 Va. 131, 135 (1999). It is not sufficient that a party proffer “merely his theory
of the case” rather than the substance of the excluded evidence. Tvnes v. Commonwealth. 49
Va. App. 17, 21 (2006), A proffer allows an appellate court to determine whether the exclusion
of evidence prejudiced a party. Graham v. Cook. 278 Va. 233, 249 (2009). In this regard, the
proffer provides a complete record for review. Wvchev. Commonwealth. 218 Va. 839, 843
(1978). “Absent a proffer showing ‘harm was done,’ we are ‘forbidden to consider the
question.’” Ray v. Commonwealth. 55 Va. App. 647, 650 (2010) (quoting Scott v.
Commonwealth. 191 Va 73, 78-79 (1950)).
-5-

Fitzgerald v. Bass. 6 Va. App. 38, 56 n.7 (1988) (en banc)). A pro se litigant “is no less bound
by the rules of procedure and substantive law than a defendant represented by counsel.” Townes
v. Commonwealth, 234 Va. 307, 319 (1987). “Even pro se litigants must comply with the rules
of 001114.” Francis v. Francis. 30 Va. App. 584, 591 (1999).
We find that claimant’s failure to comply with Rules 5A:18, 5A:20, and 5A:25 is
significant, so we will not consider his arguments. See Fadness v. Fadness. 52 Va. App. 833,
851 (2008) (“If the parties believed that the circuit court erred, it was their duty to present that
error to us with legal authority to support their contention ”): Parks v. Parks. 52 Va. App. 663,
664 (2008). Claimant was provided with an opportunity to cure the defects in his opening brief
and failed to do so. Further, to the extent that claimant argues generally that the Commission
erred by finding his testimony was not credible, we affirm the Commission for the reasons stated
in in its final opinion.7
Accordingly, we summarily affirm the Commission’s decision. See Cooper v. Advanced
Internet Automation. LLC. et al.. JCNNo. VA00001218501 (Va. Wrks. Comp. Comm. Mar. 23,
2020). We dispense with oral argument and summarily affirm because the facts and legal
contentions are adequately presented in the materials before the Court and argument would not
aid the decisional process. See Code § 17.1-403; Rule 5A:27.
Affirmed.

7 Because we summarily affirm the Commission’s decision, we need not address
employer’s motions to dismiss.
-6-

'S

*■

APPENDIX A

8

VIRGINIA:
IN THE WORKERS’ COMPENSATION COMMISSION
Opinion by SHERRILL
Deputy Commissioner
OCTOBER 18, 2019
SANDS COOPER v. ADVANCED INTERNET AUTOMATION, LLC
TRUMBULL INS CO, Insurance Carrier
TRUMBULL INSURANCE COMPANY, Claim Administrator
Jurisdiction Claim No. VA00001218501
Claim Administrator File No. Y66C 31937
Date of Injury June 12, 2016
Matthew Peffer, Esquire
For the Claimant
Heather Bardot, Esquire
For the Employer.
Tenley Carroll Seli, Esquire
For the Insurer.
Hearing before Deputy Commissioner Sherrill in Manassas, Virginia, on January 23 and
May 3, 2019.
PRESENT PROCEEDINGS
This matter is before the Commission pursuant to the claimant’s claims filed February 21,
2018 and April 4, 2018, alleging injuries by accident his neck, back, two ribs, head, brain,
including a concussion, teeth, and right leg on June 12, 2016. The claimant is seeking temporary
total disability benefits from June 12, 2016, and continuing, permanent partial disability benefits,
and an award of medical benefits. The claimant requested that the claim for permanency benefits
be reserved.

VA00001218501
STIPULATIONS
The defendants stipulated that the Commission has jurisdiction; that the claimant
provided timely notice; and that, subject to the defenses, he suffered two fractured ribs and was
totally disabled from June 12 through July 25, 2016, as a result of the accident.
DEFENSES
The employer and insurer defended the claim on the following grounds: that there was no
injury by accident arising out of or in the course of the employment; that the claimant was not
injured to the extent alleged; that the injuries, medical treatment and disability, other than as
stipulated, are not causally related to a compensable event; that the claimant is not disabled to the
extent alleged, specifically that he was released to full duty as of July 25, 2016; that the medical
evidence does not support the claimed total disability; and that, to the extent applicable, he has
failed to market his residual capacity. Defendants also contest the average weekly wage asserted
by the claimant.
SUMMARY OF THE EVIDENCE
The following evidence was introduced, admitted and considered in connection with the
adjudication of the disputed issues: (1) Hearing testimony of the claimant, Sands Cooper, and
the insurer’s financial expert, Leslie Robson; (2) Claimant’s Exhibit 1, Rule 2.2(B)(3) Medical
Designation; (3) Claimant’s Exhibit 2, photo of the car after the accident; (4) Claimant’s Exhibit
3, Police Crash Report; (5) Claimant’s Exhibit 4, 2016 1099 tax form; (6) Employer’s Exhibit 1,
Rule 2.2(B)(3) Medical Designation; (7) Employer’s Exhibit 2, Designation of Deposition
Testimony, all three depositions; (8) Employer’s Exhibit 3, Claimant’s Answers to
2

VA00001218501
Interrogatories; (9) Employer’s Exhibit 4, Articles of Organization for Advanced Internet Auto
Sales, LLC; (10) Defendant’s (Insurer’s) Exhibit 1, Rule 2.2(B)(3) Medical Designation; (11)
Defendant’s Exhibit 2, Expert Report, with attachments; (12) Defendant’s Exhibit 3, Claimant’s
deposition transcript, August 28, 2018; (13) Defendant’s Exhibit 4, Claimant’s deposition
transcript, September 7, 2018; (14) Defendant’s Exhibit 5, Certificate of Title For A Vehicle;
(15) Defendant’s Exhibit 6, Claimant’s deposition transcript, June 5, 2017; (16) Defendant’s
Exhibit 7, Designation of June 5, 2017 deposition; (17) Defendant’s Exhibit 8, Designation of
August 28, 2018 deposition; (18) Defendant’s Exhibit 9, Designation of September 7, 2018
deposition. The claimant proffered the business insurance policy, which was not admitted.
The record in this matter closed at the conclusion of the May 3, 2019 hearing.
ISSUES
1. Whether the claimant sustained a compensable accident arising out of and in the course
of his employment.
2. The nature and extent of any causally related injuries.
3. The extent of the disability.
4. The pre-injury average weekly wage.
FINDINGS OF FACT AND RULINGS OF LAW
The first issue we address is whether the claimant sustained a compensable accident as
defined by the Virginia Workers’ Compensation Act (hereinafter “the Act”). The claimant is the
CEO of Advanced Internet Automation, LLC. He also operated another business, TaxActs, and
“got into the Ginseng business.” The claimant testified that Advanced Internet Automation
(hereinafter “AIA”) was created to evaluate and analyze equipment, and to advise clients on the
appraisal and value of equipment, primarily farm equipment and trucks. This was the claimant’s
3

VA00001218501
second business.

His first business, TaxActs, was a business development and consulting

venture. The claimant testified that he advised clients how to start a business, how to value
assets and investments, and how to use business expenses to eliminate tax liability. With regard
to AIA, the claimant testified it was a physical job at times, as he had to move things to look at
and inspect equipment, crawl under equipment, and move and load equipment. He went to
auctions, private homes and farms to look at equipment, and testified he travelled twice a month
to do this. He also testified he worked seven days per week.
On June 12, 2016, a Sunday, at approximately 8:00 AM, the claimant testified he was
leaving a farm property where he was inspecting equipment. He further testified that he was
considering purchasing the farm to expand all of his businesses, that he wanted to grow ginseng
on the property, and he wanted to start buying, repairing and selling equipment. He was driving
a car purchased by TaxActs and titled m his wife’s name. As he was driving home eastbound on
Route 66, he was involved in a single car accident. He testified that he was “really cloudy”
about the events, but stated that the front end got wobbly and the brakes failed. He testified he
crashed into a bridge barrier at approximately 70 miles per hour, and the car flipped over. The
Police Crash Report states that the claimant’s vehicle “ran off the road, struck the end of the
guardrail and overturned.” The car came to rest on top of the guardrail. The claimant was
charged with failure to maintain control of his vehicle. (Cl.’s Ex. 3.) The claimant testified that
he did not know what caused the crash.

4

VA00001218501

The claimant was taken by ambulance to Fauquier Hospital, where it was noted, “[h]e
thinks he may have fallen asleep at the wheel.” CT scans of the head and neck were normal, and
he was diagnosed with two rib fractures.
"[I]n order for claimant to recover for [his] injuries, [he] must prove by a preponderance
of the evidence an injury by accident 'arising out of and in the course of [his] employment. ..."
Sentara Leigh Hosp. v. Nichols, 13 Va. App, 630, 633 (1992). "[A]n injury arises 'out of the
employment, when there is apparent to the rational mind upon consideration of all the
circumstances, a causal connection between the conditions under which the work is required to
be performed and the resulting injury. . . ." Bradshaw v. Aronovitch, 170 Va. 329, 335 (1938).
Virginia utilizes the "actual risk test" to make this determination. This requires "that the
employment expose the workman to the particular danger from which he was injured,
notwithstanding the exposure of the public generally to like risks." Lucas v. Lucas, 212 Va. 561,
563 (1972) (citing Immar arid Co. v. Brosnahan, 207 Va. 720, 725 (1967)).

The phrase “in the

course of’ refers to the continuity of time, space, and circumstances under which the injury
occurred. Bradshaw. An injury is in the course of the employment if it takes place within the
period of employment, at a place where the employee is reasonably expected to be, and while the
employee is reasonably fulfilling the duties of, or doing something incidental to, the
employment. Baggett and Meador Cos. v. Dillon, 219 Va. 633 (1978). "Whether an injury is
incident to or connected with a particular business, that is, whether it arises out of and in the
course of the employment, depends upon the peculiar circumstances of each case. No exact rule

5

VA00001218501
can be formulated by which every case can be decided. ..." Railway Express Agency, Inc. v.
Lewis, 156 Va. 800, 809, 159 S.E. 188, 191 (1931).
In the present case, we find that the claimant failed to prove an injury by accident either
arising out of or in the course of his employment. First, we are not persuaded that the claimant
was in the course of his employment with AIA at the time of the accident. The Articles of
Organization describe the purpose of the business as a “limited liability company involved in
brokering, trading and transporting automobiles using an online marketing service.”

The

claimant testified he was at a farm inspecting equipment in furtherance of this business.
However, the claimant was not a credible witness; he was evasive, argumentative and even
belligerent at times, and repeatedly referred to himself as the “potentate”.

Additionally, there

were many inconsistencies and contradictions throughout his testimony. The claimant did not
identify the equipment he allegedly went to inspect, did not tell the broker or anyone he was
going to the farm, and did not talk to anyone while he was there.

Thus, considering his

testimony as a whole, we are persuaded that his trip to see the farm was personal, as he testified
he was interested in buying a farm to enlarge all of his businesses and to start new ventures.
Furthermore, even if the claimant was in the course of his employment, we do not find
that the accident arose out of his employment. The hospital records report that the claimant
stated he thought he may have fallen asleep at the wheel, which he adamantly denied at the
hearing. Regardless, and most significantly, he testified that he did not know what caused the
crash. It is well settled that the claimant’s case can rise no higher than his own uncontradicted
testimony. See Charlton v. Craddock-Terry Shoe Corp., 235 Va. 485 (1988) {citing Massie v.
6

VA00001218501
Firmstone, 134 Va. 450 (1922)).

Therefore, we find that the cause of the accident is

unexplained. Unexplained accidents are not compensable.
For the foregoing reasons, the claimant’s claims are DENIED. Accordingly, we do not
need to address the remaining issues or summarize the other extensive testimony and voluminous
documentary evidence submitted.
This case is removed from the hearing docket.
REVIEW
You may appeal this decision to the full Commission by filing a Request for Review with
the Commission within thirty (30) days of the date of this Opinion.

7

SANDS COOPER
7978 BLOOMS RD
MANASSAS, VA 201112402

Interested Parties
Employer:
ADVANCED INTERNET AUTOMATION, LLC
7978 Blooms Rd
Manassas, VA 20.111-2402
Employer Attorney:
Heather Bardot
Paperless
Claimant Attorney:
Matthew Peffer
6402 Arlington Blvd Ste 600
Falls Church, VA 22042-2343
Insurance Carrier:
TRUMBULL INS CO
TIMOTHY MAKOWSKE
POBox 14473
Lexington, KY 405124473
Claim Administrator Attorney:
Tenley Carroll Seli
Paperless
Claim Administrator:
TRUMBULL INSURANCE COMPANY
POBox 14473
Lexington, KY 40512-4473

Injured Worker:
SANDS COOPER
7978 BLOOMS RD
MANASSAS, VA 201112402

APPENDIX B
22

VIRGINIA:
IN THE WORKERS’ COMPENSATION COMMISSION
Opinion by MARSHALL
Commissioner
Mar. 23, 2020
SANDS COOPER v. ADVANCED INTERNET AUTOMATION, LLC
TRUMBULL INS CO, Insurance Carrier
TRUMBULL INS CO, Claim Administrator
Jurisdiction Claim No. VA00001218501
Claim Administrator File No. Y66C 31937
Date of Injury June 12, 2016
Sands Cooper
Claimant, pro se. i
Heather Bardot, Esquire
For the Employer.
Tenley Carroll Seli, Esquire
For the Insurer.

REVIEW on the record by Commissioner Marshall, Commissioner Newman, and
Commissioner Rapaport at Richmond, Virginia.
The claimant requests review of the Deputy Commissioner’s October 18, 2019 Opinion
finding he failed to prove a compensable injury by accident arising out of and in the course of his
employment We AFFIRM.2
I.

Material Proceedings
The claimant filed a February 21,2018 claim alleging injuries to his ribs, neck, head, back,

and right leg from a June 12, 2016 motor vehicle accident. He sought medical benefits and

1 The claimant was represented by Michael I-Ierdman, Esquire at the January 23 and May 3, 2019 hearings.
Matthew PefFer, Esquire was substituted as counsel on October 16, 2019. Attorney Peffer thereafter withdrew as
counsel per the Commission’s January 15, 2020 Order.
2 We deny the claimant’s oral argument request, as it would not be helpful to the Commission in this case.

JCN VA00001218501
temporary total disability from June 12, 2016 and continuing.3 On April 4, 2018 he filed a claim
alleging additional injuries to the teeth, brain, and a concussion.
The employer and insurer raised multiple defenses to the claim. Pertinent to this appeal,
they asserted there was no injury by accident arising out of and in the course of the employment.
Following evidentiary hearings on January 23, 2019 and May 3, 2019, the Deputy
Commissioner issued an October 18, 2019 Opinion. She found the claimant was not a credible
witness. She was not persuaded the claimant was in the course of his employment with Advanced
Internet Automation at the time of the accident. Rather, she found the motor vehicle accident
occurred while the claimant was on a personal trip to a farm. Based upon the claimant’s testimony
that he did not know what caused the crash, she found the accident was unexplained and did not
arise out of the employment. The claims were denied.
The claimant filed a timely request for review.4
II.

Findings of Fact and Rulings of Law
We have reviewed the record and recite the facts only to the extent necessary to explain

our reasoning.5

3 At the claimant’s request, the Commission held the February 21,2018 permanent partial disability claim in
abeyance.
4 On review, the claimant asserts that he represents the employer and he does not deny the compensability of
his claim. (Cl.’s W.S. 3.) However, “It is well settled that representation of parties before the [Virginia Workers’
Compensation] Commission constitutes the practice of law." Hewitt v. Norfolk Shipbuilding & Drydock Corp.,
51 O.I.C. 121, 122 (1969). The claimant, a non-lawyer, may represent himself personally, but may not represent the
interests of another party before the Commission. See Va. Sup. Ct. R. pt. 6, § I, R. 1. The record establishes that
Advanced Internet Automation is a limited liability company (“LLC”). Because the LLC is a separate party to this
proceeding before the Commission, it must be represented by an attorney, rather than an employee. See Id.
Accordingly, the claimant cannot represent the interests of the employer before the Commission. The employer is
represented by Heather Bardot, Esquire. The claimant’s objection that the Insurer’s counsel did not consent to or
dispute Attorney Bardot’s appearance in the claim is irrelevant and does not affect the issues on review in this case.
5 We have reviewed, but do not consider, the additional evidence the claimant provided on review that was
not admitted to the hearing record before the Deputy Commissioner. The claimant seeks to admit various documents
including amended Articles of Organization for Advanced Internet Automation dated July 16, 2015, his Northern

2

JCNVA00001218501
A.

Hearing Procedures and Discovery Issues

“An evidentiary hearing by the Commission shall be conducted as a judicial proceeding. ”
Va. Workers’ Comp. R. 2.2. However, “[The Workers’ Compensation Commission] is afforded
considerable latitude in adapting the conduct of hearings to the circumstances of the case.” Kim v.
Sportswear, 10 Va. App. 460, 470 (1990). Moreover, Deputy Commissioners are granted
substantial discretion in responding to discovery and evidentiary issues. See Harris v. Anteon
Corp., VWC File No. 215-07-55 (Nov. 15, 2004).
On review, the claimant objects to the Deputy Commissioner’s admission of Employer’s
Exhibit 4, The Articles of Organization for “Advanced Internet Auto Sales, LLC.” However, the
claimant did not make a timely objection to the admission of that evidence at hearing. We find he
waived any objection to the exhibit and we do not consider the issue on review.
The claimant also contends the Deputy Commissioner erred in not admitting a copy of
policy documents received from the carrier. Our review of the record reveals that during direct
examination of the claimant, claimant’s counsel attempted to introduce documents regarding the
employer’s workers’ compensation policy with Hartford. The defendants objected on the grounds

Virginia Community College transcript dated June 27, 2016, a May 15, 2004 certificate for completion of volunteer
financial education counselor training, and a ginseng dealer Permit issued December 6, 2019. The claimant's written
statement also includes a number of factual assertions that were not included in his hearing testimony.
Rule 3.3 of the Rules of the Virginia Workers’ Compensation Commission pertains to the acceptance of
additional evidence after a hearing. This rule provides that such evidence will be considered by the Commission only
when it is absolutely necessary and advisable, and the party requesting that the evidence be considered conforms to
the rules of the courts of the Commonwealth of Virginia for the introduction of after-discovered evidence. To meet
these requirements, the evidence (1) must have been discovered after the hearing; (2) must not be cumulative,
corroborative, or collateral; (3) could not have been discovered before the hearing by the exercise of due diligence;
and (4) must be of such a character as to produce a different result. Miller v. Dixon Lumber Co., 67 O.I.C. 71 (1988)
(citingNicholson v. Coal Corp., 154 Va. 401 (1930)). The documents submitted by the claimant were either in
existence prior to the hearing, are not relevant to the issues before the Commission, or would not be likely to produce
a different result. Furthermore, the claimant had ample opportunity to testify at hearing. We find no basis under our
Rules to consider this additional evidence on review.

3

JCN VA00001218501
that the documents were just recently received, the documents were not a certified insurance
policy, and the claimant was not able to authenticate them. (Tr. 72-81, May 3, 2019.) Having
considered the record and the facts, we hold the Deputy Commissioner acted reasonably within
her discretion by excluding the documents. We also find no error here because the claimant has
not adequately demonstrated how admission of the policy documents would affect a decision on
whether the accident arose out of or in the course of the employment.6
The claimant also argues that the Deputy Commissioner exhibited bias and unfairness
towards him and “colluded” with the employer and insurer.7 He alleges the Deputy Commissioner
accepted documents into the hearing record, “under false pretense.” The claimant also accuses
defense counsel of improper conduct and deception. We have reviewed the record. We find no
evidence in the record to substantiate these allegations and we reject them. 8
B.

Compensability

“[I]n order for claimant to recover for [his] injuries, [he] must prove by a preponderance
of the evidence an injury by accident ‘arising out of and in the course of [his] employment.”
Sentara Leigh Hosp. v. Nichols, 13 Va. App, 630, 633 (1992). “The concepts ‘arising out of and
‘in the course of employment are not synonymous and both conditions must be proved before

6 The claimant’s written statement recites the Insurer’s notification after the accident that it would not renew'
the employer’s workers’ compensation insurance policy. This contention is irrelevant and does not affect the issues in
dispute on review' bv the Full Commission.
' The claimant argues the Deputy Commissioner’s use of the pronoun “we” in her Opinion indicates that her
decision w'as a ‘'team” decision made with counsel for the employer and the insurer. To the contrary, the pronoun
“we” in the Deputy' Commissioner’s Opinion refers to herself in her representative capacity on behalf of the
Commission. In this Opinion, ‘\ve” refers to the Full Commission review panel.
8 This also applies to the claimant’s allegations that the Deputy Commissioner acted “under bad faith” which
contradicted her role “in making a fair and equitable judgement. . . .” (Cl.’s W.S. 28.), erred in “using her personal
opinion when rendering an opinion NOT to fully review' all the evidence and testimony” and made “her biased
statements.” (Cl.’s W.S. at 29.)

4

JCN VA00001218501
compensation will be awarded.” Bernard v. Carlson Cos.—TGIF, 60 Va. App. 400, 405 (2012)
(quoting Clifton v. Clifton Cable Contracting, LLC, 54 Va. App. 532, 539 (2009)). Under the street
risk doctrine, an injury is compensable if the claimant “establishes] by a preponderance of the
evidence (1) that his or her duties to the employer require his or her presence upon the public
streets, and (2) that his or her injury arose from an actual risk of that presence upon the
streets

Hill v. S. Tank Transp. Inc., 44 Va. App. 725, 730 (2005) (quoting Nichols, 13 Va.

App. at 634-35).
We address each prong of compensability in turn.
l.

In the Course Of

“An accident occurs ‘in the course of the employment’ when it takes place within the period
of the employment, at a place where the employee may reasonably be, and while he is reasonably
fulfilling duties of his employment or engaged in doing something incidental thereto.” Combs v.
Va. Elec. & Power Co., 259 Va. 503, 511 (2000) (quoting Bradshaw v. Aronovitch, 170 Va. 329,
335 (1938)). “The Commission has ruled that where a claimant, on his own initiative, engages in
some activity other than his regular duties, an [enjsuing industrial accident is compensable if the
thing which he was doing at the time of the injury was in furtherance of his employer’s interest,
and was reasonably incidental to such duties.” Cnthbertson v. Beatrice Pocahontas Coal Co.,
60 O.I.C. 118 (1981) (citing Cohen v. Cohen’s Dep’t Store, 171 Va. 106 (1938))
On review, the claimant asserts the accident occurred when he was driving to a farm for
the purpose of expanding his agricultural business, and to see if there would be enough storage for
equipment. He argues the trip related to the business activities of Advanced Internet Automation.
We have thoroughly reviewed the record and are not persuaded by this argument.

5

JCN VA00001218501

At hearing, the claimant testified he was the owner and chief executive officer of Advanced
Internet Automation. (Tr. 23, Jan. 23, 2019.) The purpose of the business was to evaluate
equipment for clients and give advice on the resale price of equipment. (Id.) The claimant mostly
evaluated farming and trucking equipment. (Id.) About twice per month he would go inspect
equipment at farmhouses, courthouses, auction houses, and private homes. (Id. at 33.) He
otherwise worked in his home office. (Id.) He formerly maintained a ginseng business under the
umbrella of Advanced Internet Automation. (Id. at 31.) He testified that on June 12, 2016 he
traveled to a farm property in Warren, Virginia to determine if he wanted to buy it. (Id. at 42-43.)
He was interested in purchasing the farm to expand his business. (Id. at 44.) He anticipated growing
ginseng and storing equipment on the farm. (Id.) The accident occurred on his return trip from the
farm. (Id. at 42, 45.)
On cross-examination, the claimant denied that the company’s business was limited to
buying and selling equipment through internet auctions. (Tr. 92, Jan. 23, 2019.) He explained the
business brokered equipment sales, but he had a growth plan to buy equipment and store it on the
farm. (Id. at 108.) He did not enter the farm property, did not tell the owner or broker he was
looking at the farm, did not meet anyone at the farm, and did not take any photographs of the farm.
(Id. at 113, 150).
The Articles of Organization for “Advanced Internet Auto Sales, LLC”9 were entered into
evidence. (Ernp’rs/ Ex. 4.) The claimant agreed the articles indicated the purpose of the business

9 During his August 28, 2018 deposition the claimant explained that the name of his company was changed
from Advanced Internet Auto to Advanced Internet Automation. (Cl.’s Dep. 37-18, Aug. 28, 2018.)
6

JCN VA00001218501
was to broker, trade, and transport automobiles using an online marketing service. (Tr. 112,
Jan. 23, 2019.) He agreed there was no mention of ginseng in the articles of organization. (Id.)
During his June 5, 2017 deposition, the claimant testified that Advanced Internet
Automation bought and sold equipment, mostly through internet auctions. (Cl.’s Dep. 9, June 5,
2017.) He explained that he contracted with clients who wanted to buy heavy equipment, located
the equipment, and made sure it was transported to the buyer. (Id. at 26.) He did not generally store
equipment, and did not buy any equipment he could not move. (Id. at 27.) He had decided to
change his business model to make more money. (Id. at 29.) He was looking for properties where
he could store equipment. (Id. at 27-29.) He testified he was a full-time equipment broker, and had
stopped selling or trading ginseng four or five years ago. (Id. at 48.) He was not looking to purchase
farmland where he could grow ginseng. (Id.)10
During an August 28, 2018 deposition, the claimant testified that Advanced Internet
Automation assisted people in buying equipment. (Cl.’s Dep. 18, Aug. 28, 2018.) The claimant
would inspect the equipment, give people advice on its value, and tell them how to transport the
equipment, howto get financing, and howto use tax benefits. (M)The claimant was an equipment
broker and did not actually buy the equipment. (Id. at 22.) As of the date of the accident he was
not actually growing ginseng, but he would act as a broker. (Id. at 33.) On the date of the accident
he was going to inspect a farm to get back into growing ginseng, and was on his return trip when

10 This contradicts the claimant’s argument on review, based on an unproven generalization, that he must
have been engaged in farming activity because, “[i]t would not be possible to be a produce broker without engaging
in farming activities.’'' (Cl.’s W.S. 14.) We decline the invitation to take judicial notice of this or to engage in
speculation regarding it.

7

JCN VA00001218501
the accident happened. {Id. at 34.) At a September 7,2018 deposition, the claimant testified he was
considering growing ginseng and drove by the property. (Cl.’s Dep. 67-68, Sept. 7, 2018.)
We are unable to reconcile the claimant’s inconsistent testimony regarding the purpose of
his trip on the date of the accident. He testified he was going to store equipment but was not
planning on growing ginseng on the farmland. He then testified he was considering growing
ginseng on the land but did not mention storing equipment. At another point he testified he was
planning on growing ginseng and storing equipment on the farmland. The Deputy Commissioner
found “the claimant was not a credible witness; he was evasive, argumentative and even belligerent
at times .... Additionally, there were many inconsistencies and contradictions throughout his
testimony.” (Op. 6.) Having thoroughly reviewed the record, we agree with the Deputy
Commissioner’s assessment of the claimant’s credibility. Given the inconsistencies in his
testimony and his demonstrated lack of credibility, we are unable to determine the true purpose of
the claimant’s trip to the farm.31
Even if we were to accept the claimant’s explanation that he was planning to store
equipment and/or grow ginseng on the farm, it appears that those activities were new ventures
unrelated to the business purpose of Advanced Internet Automation. The evidence established that
Advanced Internet Automation was in the business of brokering heavy equipment sales over the
internet. The business did not store equipment, but transported it directly to the buyer. As part of
that business, the claimant would travel a few times a month to inspect equipment. The evidence

11 The Deputy Commissioner’s Opinion stated that “The claimant testified he was at a farm inspecting
equipment in furtherance of this business.” (Op. 6.) On review, the claimant asserts he did not testify he was travelling
to the farm on the date of the accident to inspect equipment. (Cl.’s W.S. 12, 15.) We agree the Deputy Commissioner
did not accurately summarize this portion of the claimant’s testimony. However, this does not alter our decision, which
is based upon our independent review of the entire record.

8

JCN VA00001218501
did not preponderate to show that either growing ginseng or storing equipment were part of the
business of Advanced Internet Automation.
Accordingly, the claimant failed to meet his burden of proving that his trip to the farm was
reasonably incidental to his duties as the owner of the business or in furtherance of the business’s
interests. In other words, his presence on the street was not proven to be related to his employment.
The claimant did not prove his accident occurred in the course of his employment.
li.

Arising Out Of

Our finding that the claimant was not in the course of his employment at the time of the
accident is dispositive. However, for completeness, we address the argument that the Deputy
Commissioner erred in finding the accident did not arise out of the employment. “To satisfy the
'arising out of prong of the compensability test, [the claimant] had to prove that ‘there is apparent
to the rational mind upon consideration of all the circumstances, a causal connection between the
conditions under which the work is required to be performed and the resulting injury. Marketing
Profiles v. Hillt 17 Va. App. 431, 434 (1993) (quoting Bradshaw, 170 Va. at 335). As the claimant
was in a motor vehicle accident on a public highway, the street risk doctrine requires he prove his
“injury arose from an actual risk of his presence upon the streets[.]” S. Tank Transp., Inc., 44 Va.
App. at 730 (quotingNichols, 13 Va. App. at 634-35). For the reasons that follow, we find the
claimant failed to meet this burden.
The medical record reflects that the claimant arrived at the Fauquier Hospital Emergency
Department by ambulance on June 12, 2016. The Emergency Department visit note stated, “He
thinks he may have fallen asleep at the wheel.” The EMS Pre-Hospital Care Report states “Pt
advised he wrecked because he believed he fell asleep . . .

9

The claimant was seen at Northern

JCN VA00001218501
Virginia Orthopaedic Specialists on June 28, 2016. The record notes that the claimant was driving
on route 66 when he began to have wobbling in the front of his car. At a July 5, 2016 appointment
at Prince William Family Medicine, the claimant stated, “either he fell asleep, or the car failed and
he lost control of the car and it flipped over.”
At hearing, the claimant testified he was “really cloudy about the actual events” of the
crash. (Tr. 47, Jan. 23, 2019.) He explained he was driving along and the front end of the vehicle
just started wobbling and went out of control. (Id.) He testified that before the accident, his vehicle
was a “pristine,” “perfectly working automobile.” (Id. at 49.) When asked what caused the crash,
the claimant responded, “I really don't know. I was driving along and the front end started
shimmering12 and I tried to brake and the brakes failed and the next thing I remember after that I
came to with the people at my car asking me was I okay.” (Id. at 53-54.) On cross-examination,
the claimant adamantly denied falling asleep at the wheel. (Id. at 121-22.)
During the June 5, 2017 deposition, the claimant testified:
I was driving along on Interstate 66 and my car just started rattling and ran out of
control and next thing you know I was—hit the Jersey wall—whatever they call
it—the highway barrier; my steering wheel started shaking, my tire started
wobbling and off the road it went. No problems with that vehicle prior to that
moment.
(Cl.*s Dep. 30, June 5, 2017.) At his September 8, 2018 deposition, the claimant testified that his
car hyper-accelerated and sped out of control. (Cl.’s Dep. 76, Sept. 8, 2018.)
Given our finding that the claimant was not a credible witness, we give little weight to his
testimony that his vehicle began shaking or accelerated out of control. Of note, the claimant
admitted his recollection of the events was cloudy and initially told his medical providers that he
This is the verbiage written in the transcript of hearing but we believe the claimant said, “shimmying.”
10

JCN VA00001218501
may have fallen asleep at the wheel. He subsequently told a medical provider that either he fell
asleep or the car failed. The claimant did not have any problems with his vehicle prior to the
accident. The claimant did not prove any defect with the vehicle which caused the accident. The
record as a whole persuades us that the claimant was not reasonably certain about the cause of the
accident. He failed to meet his burden of proving his accident arose out of the employment.
We note that medical and disability benefits are only available under the Act when an
employee suffers a compensable accident.13 Given the claimant’s failure to prove a compensable
accident arising out of and in the course of the employment, he is precluded from receiving the
benefits requested. Therefore, we need not address his arguments regarding the nature and extent
of his various injuries, the extent of his disability, his average weekly wage,14 or his marketing
efforts.15
III.

Conclusion
We AFFIRM the October 18, 2019 Opinion.
This matter is hereby removed from the review docket.

13 The claimant asserts the employer, by counsel, stipulated he was, ‘"injured AT WORK” (Cl.’s W.S. 19.)
We have reviewed the reference on page 6 of the Transcript of the January 23, 2019 hearing. The Employer’s counsel
stipulated the claimant suffered injuries and demonstrated disability, but did not agree he was injured at work. The
Deputy Commissioner did not err in inteipreting the stipulations.
14 This includes the claimant’s argument on review regarding his tax records. We make no inference or
conclusion, positive or negative, expressly relating to tax records, because it does not affect our decision on the
dispositive issues.
15 The claimant also raises an issue regarding the accuracy of the hearing transcript of the defense expert
witness’ testimony. (Cl.'s W.S. 30-31.) Given that the expert witness’ testimony did not affect our findings regarding
the compensability of the accident, we do not address the claimant’s assertion, other than to note that the claimant’s
allegations that the Deputy Commissioner or some unidentified individual improperly edited the May 3, 2019 hearing
transcript to assist the defense are completely baseless.

11

JCN VA00001218501
APPEAL
You may appeal this decision to the Court of Appeals of Virginia by filing a Notice of
Appeal with the Commission and a copy of the Notice of Appeal with the Court of Appeals of
Virginia within thirty (30) days of the date of this Opinion. You may obtain additional information
concerning appeal requirements from the Clerk’s Offices of the Commission and the Court of
Appeals of Virginia.

12

APPENDIX D
41

VIRGINIA:
In the Court ofJLppeals of Virginia on

Tuesday

the

9,h

day of February, 2021.

Sands Cooper,
against

Appellant,
Record No. 0597-20-4
Claim No. VA00001218501

Advanced Internet Automation, LLC and
Trumbull Insurance Company,

Appellees.

Upon a Petition for Rehearing
Before Judges O’Brien, Malveaux and Senior Judge Frank

On consideration of the petition of the appellant to set aside the judgment rendered herein on the 15th
day of December, 2020 and grant a rehearing thereof, the said petition is denied.

A Copy,
Teste:
Cynthia L. McCoy, Clerk
By:
Deputy Clerk

APPENDIX E
43

